Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MEDICARE PAYMENTS TO
    AMBULATORY SURGICAL
         CENTERS FOR
     INTRAOCULAR LENSES




                     Inspector General

                     February 2004
                    OEI-06-02-00710
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud aler ts and other industry guidance.
            A B S T R A C T 





                                         The objective of this inspection was to determine whether
                                         Medicare payment to ambulatory surgical centers (ASCs) for
                                         intraocular lenses (IOLs) is “reasonable and related to the cost”
                                         of the lenses, as required by law. We found that the current
                                         $150 per lens payment for IOLs is not “reasonable and related to
                                         the cost.” For the 12 months ending June 2002, 40 percent of
                                         IOL payments by Medicare and its beneficiaries were in excess
                                         of ASC IOL cost. Overall, IOL cost averaged $90.30 per lens,
                                         $59.70 below the $150 Medicare payment. IOL cost varied
                                         significantly by type of lens (grouped by lens material), with the
                                         highest cost IOL averaging $125 per lens, the most frequently
                                         used IOL averaging $69 per lens, and the lowest cost IOL
                                         averaging $39 per lens. We estimated that Medicare and its
                                         beneficiaries could have achieved substantial savings through
                                         the use of alternative payments rates.
                                         We recommend that Centers for Medicare & Medicaid Services
                                         (CMS) reduce Medicare payment to ASCs for IOLs in a manner
                                         that takes into account the different types and cost of IOLs. In
                                         comments, CMS agreed to take into account our
                                         recommendation and IOL cost data in developing the revised
                                         payment system for ASCs required by the Medicare Prescription
                                         Drug, Improvement, and Modernization Act of 2003.




O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   i
     E X E C U T I V E                                                 S U M M A R Y 





                                         OBJECTIVE
                                         To determine whether Medicare payment to ambulatory surgical
                                         centers (ASCs) for intraocular lenses (IOLs) is “reasonable and
                                         related to the cost” of IOLs, as required by law.



                                         BACKGROUND
                                         Medicare payment to ASCs for IOLs is required by section
                                         1833(i)(2)(A)(iii) of the Social Security Act to be “reasonable and
                                         related to the cost” of lenses. Medicare’s current payment is
                                         $150 per lens for virtually all types of IOLs. The payment rate
                                         has remained unchanged, despite 1994 cost data suggesting that
                                         it substantially exceeds the cost of IOLs. The Medicare
                                         Prescription Drug, Improvement, and Modernization Act of 2003
                                         (MMA) requires the Centers for Medicare & Medicaid (CMS) to
                                         implement a revised payment system for ASCs betweem
                                         January 2006 and January 2008.
                                         We gathered ASC cost information for 359 randomly selected
                                         Medicare-covered IOLs for the 12 months ending June 2002. We
                                         determined the average cost per IOL and projected the results to
                                         the population of Medicare-covered IOLs in the sample period.
                                         We also analyzed cost by type of IOLs. Finally, we identified
                                         possible alternative payment rates and estimated potential
                                         Medicare and beneficiary savings.



                                         FINDINGS
                                         Medicare payment to ASCs for IOLs was not “reasonable and
                                         related to the cost” of lenses, with about 40 percent of total
                                         amount paid exceeding cost.
                                         We found an average ASC IOL cost of $90.30 per lens for the 12
                                         months ending June 2002, which is $59.70 below the current
                                         $150 per lens Medicare payment. The average cost per lens
                                         varied by IOL lens material, with $124.77 per lens paid for IOLs
                                         made of soft acrylic, $69.37 for silicone, and $39.10 for
                                         polymethyl methacrylate (PMMA). These differences in cost
                                         strongly suggest that a single payment rate for these IOL types

O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   ii
E   X     E      C      U         T   I     V      E           S      U        M      M       A      R      Y


                                                     is not reasonable. We estimate that, depending upon how CMS
                                                     chooses to refine IOL payment, Medicare and its beneficiaries
                                                     could have achieved substantial savings if alternative payment
                                                     rates had been paid to ASCs for IOLs instead of the $150 per
                                                     lens that was paid.



                                                     RECOMMENDATION
                                                     We recommend that the Centers for Medicare & Medicaid
                                                     Services reduce Medicare payment to ASCs for IOLs in a
                                                     manner that takes into account the different types and cost of
                                                     IOLs.
                                                     Agency Comments

                                                     CMS agreed to take into account our recommendation and IOL
                                                     cost data in developing the revised payment system for ASCs
                                                     required by MMA.




    O E I - 06 - 02 - 0 0 7 1 0           ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   iii
     T A B L E                                  O F                   C O N T E N T S 




                              A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




                              E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii





                              I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                              F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                                           Medicare payment not reasonable and related to ASC IOL cost ...... 7




                              R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11




                              E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



                              A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                                           A: Estimates and Confidence Intervals ........................................... 15


                                           B: IOL Cost Distributions ................................................................ 17


                                           C: Agency Comments ....................................................................... 19




                              A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





O E I - 06 - 02 - 0 0 7 1 0          ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES
     I N T R O D U C T I O N 





                                         OBJECTIVE
                                         To determine whether Medicare payment to ambulatory surgical
                                         centers (ASCs) for intraocular lenses (IOLs) is “reasonable and
                                         related to the cost” of IOLs, as required by law.



                                         BACKGROUND
                                         An ASC provides surgical services to patients not requiring
                                         hospitalization.1 The Centers for Medicare & Medicaid Services
                                         (CMS) determines which surgical procedures may be performed
                                         in ASCs and periodically publishes a list of covered procedures
                                         in the Federal Register. 2 Medicare covers five procedures
                                         involving IOL implants: three cataract surgery procedures, and
                                         two IOL replacement procedures. 3 An IOL is an artificial lens
                                         made of polymethyl methacrylate (PMMA), silicone, acrylic, or
                                         other material that is implanted inside the eye during or
                                         subsequent to cataract surgery. Cataract surgery with IOL
                                         insertion ranks as the highest outpatient surgical procedure
                                         covered by Medicare Part B in terms of total expenditures. 4
                                         Payments to ASCs for cataract surgery and other IOL implant
                                         procedures are made up of two parts: a prospectively
                                         determined payment for the surgical procedure and a payment
                                         for the IOL itself. 5 While various factors affect the payment for
                                         each of the five surgical procedures (e.g., geographic wage
                                         adjustments), payment for IOLs is fixed nationwide and not
                                         subject to inflation adjustments. With the exception of two lens
                                         models designated as new technology IOLs,6 the Medicare
                                         program and its beneficiaries have paid ASCs the fixed amount
                                         of $150 per IOL since 1994. At $150 per IOL, program and
                                         beneficiary payments totaled about $134 million in the 12
                                         months ending June 30, 2002 for IOLs alone.7
                                         The current $150 payment per IOL was originally mandated by
                                         Congress in the Omnibus Budget Reconciliation Act of 1993
                                         (OBRA ‘93) and applied to all IOLs implanted from January
                                         1994 through December 1998.8 Congress took this action after
                                         the Office of Inspector General (OIG) found that the previous
                                         Medicare payment of $200 per IOL substantially exceeded prices

O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   1
I   N       T      R      O       D   U     C      T     I     O       N

                                                 that ASCs paid for IOLs in both 1991 and 1993.9 The previous
                                                 $200 payment per IOL had also been based on information
                                                 provided by OIG in a 1988 report. 10
                                                 Since the congressionally-mandated OBRA ‘93 rate expired in
                                                 1998, the Social Security Act (hereafter, the Act) establishes the
                                                 criteria for appropriate payment. Section 1833(i)(2)(A)(iii) of the
                                                 Act specifies that Medicare payment to ASCs for IOLs should
                                                 include “…payment which is reasonable and related to the cost
                                                 of acquiring the class of lens involved.”
                                                 Medicare payment to ASCs for IOLs has not been adjusted since
                                                 the expiration of the OBRA ‘93 rate, despite evidence that the
                                                 payment exceeded the cost of IOLs. In a 1994 survey of ASC
                                                 cost, the Centers for Medicare & Medicaid Services (CMS) found
                                                 a weighted mean ASC IOL cost of $100 for all ASCs sampled.11
                                                 The 1994 survey was the last survey of ASC cost conducted by
                                                 CMS. Until recently, CMS had been required by section 1833
                                                 (i)(2)(A)(i) of the Act to conduct a survey of ASC costs every 5
                                                 years (e.g., 1999, 2004).12 However, the Medicare Prescription
                                                 Drug, Improvement, and Modernization Act of 2003 (MMA)
                                                 repealed the survey requirement and mandated that CMS
                                                 implement a revised payment system for ASCs beginning on or
                                                 after January 1, 2006 and not later than January 1, 2008.13
                                                 The MMA also requires the General Accounting Office (GAO) to
                                                 conduct a study of ASC payments, including consideration of
                                                 cost data submitted by ASCs, and to report the results to
                                                 Congress by January 2005.
                                                 Further, while the last two changes in Medicare payment to
                                                 ASCs for IOLs have involved paying a single rate for lenses
                                                 other than new technology IOLs, CMS has the authority to set
                                                 different payment rates for different classes of IOLs. The Act
                                                 specifies that payment to ASCs for insertion of IOLs must be
                                                 “reasonable and related to the cost of acquiring the class of lens
                                                 involved” (emphasis added). The House Conference Report
                                                 accompanying the Omnibus Budget Reconciliation Act of 1987
                                                 (OBRA ‘87), which added this requirement, emphasizes that for
                                                 the purposes of paying an amount that is reasonable and related
                                                 to the cost, “the [Department of Health and Human Services
                                                 (HHS)] Secretary may establish categories of IOLs based on
                                                 differences in type and cost.”14



    O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   2
I   N       T      R      O       D   U     C      T     I     O       N




                                                 SCOPE AND METHODOLOGY
                                                 Utilizing the 100 percent Medicare National Claims History file
                                                 of paid Part B claims with a date of service for the 12 months
                                                 ending June 30, 2002, we identified the population of 893,428
                                                 claims for which Medicare and its beneficiaries paid $150 per
                                                 IOL used in an implant procedure performed in an ASC.15
                                                 Sample. We stratified the 893,428 IOL implant claims into 3
                                                 groups, based on the number of claims associated with a unique
                                                 Medicare Part B carrier provider number (Table 1). The
                                                 purpose of stratification was to allow for the over sampling of
                                                 claims associated with provider numbers with relatively few
                                                 claims in the population. 16 The divisions between strata – at
                                                 120 and 1,200 annual claims – are equivalent to ASCs
                                                 submitting, on average, fewer than 10 claims per month,
                                                 between 10 and 100 claims per month, or more than 100 claims
                                                 per month.

                                                                                                   Table 1: Sample Design
                                                                      Stratification of IOL Claims Associated with Unique
                                                                          Medicare Part B Carrier Provider Numbers
                                                                                                     Population
                                                     Strata (Claims per                                Provider                      Population           Sampled
                                                     Provider Number)                                 Numbers                           Claims             Claims

                                                         1,200 or more                                             165                   293,652              180

                                                             121 – 1199                                        1,160                     564,917              120
                                                             120 or fewer                                      1,662                      34,859               60

                                                                 Total                                         2,987                     893,428              360



                                                 We sampled a total of 360 claims, a number that permits
                                                 projection to the population at a 95 percent confidence level. We
                                                 randomly selected 60, 120, and 180 claims from the 3 strata. 17
                                                 By selecting more claims from the two strata that had more
                                                 claims per unique provider number, we ensured the sample
                                                 would contain more ASCs than if we had selected the same
                                                 number of claims from each stratum. The final sample
                                                 contained 360 claims from 268 different ASCs.



    O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES             3
I   N       T      R      O       D   U     C      T     I     O       N

                                                 Initial Data Collection. We requested ASCs with the associated
                                                 sampled claims to identify the manufacturer, model, and various
                                                 characteristics of the IOL used in each implant procedure and to
                                                 report its cost, net of discounts, rebates, and any other
                                                 reductions in price. Additionally, we requested supporting
                                                 documentation, such as copies of supplier invoices, purchase
                                                 agreements, and IOL identification labels relating to each
                                                 sampled claim.
                                                 Document Reviews and Follow-up Data Collection. In order to
                                                 verify the accuracy of the IOL cost data reported by ASCs, we
                                                 reviewed supporting documentation provided with each
                                                 response. These reviews involved examining supplier invoices,
                                                 discount and rebate statements, purchase agreements, and
                                                 contracts. When the document review revealed any apparent
                                                 discrepancy between reported cost and supporting documents, or
                                                 whenever additional documentation or clarification of a response
                                                 was needed, we contacted the respondent to resolve the
                                                 question(s). When appropriate, we adjusted the initial self-
                                                 reported ASC IOL cost data to more accurately reflect cost, as
                                                 revealed through document reviews and follow-up interviews of
                                                 respondents.
                                                 Despite these efforts, we learned during data collection that we
                                                 were not always able to measure and document all reductions to
                                                 the IOL sales prices listed on invoices. Some ASC respondents
                                                 reported they lacked access to full financial information when
                                                 contracts were handled at the corporate level. Others
                                                 acknowledged that they could not report all price reductions
                                                 because either they purchased IOLs through group purchase
                                                 organizations or their purchase arrangements with IOL vendors
                                                 were highly complex.18 Therefore, while we were able to
                                                 document an accurate invoice sales price for each IOL in the
                                                 sample and an accurate net sales price (cost) for most IOLs in
                                                 the sample, some ASCs likely paid less than the reported
                                                 amount. Of the sampled IOLs where we were able to obtain
                                                 information on rebates and agreements, all of them decreased,
                                                 rather than increased, the actual IOL cost compared to invoice
                                                 price. We found no evidence to suggest that any ASC paid more
                                                 for an IOL in the sample than the cost we used in the analysis.
                                                 Response Rate . Of the 360 claims sampled, we excluded 1 claim
                                                 as ineligible and imputed cost for 1 claim where cost data could


    O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   4
                                         not be reported. For the first of these claims, the respondent
                                         reported that the IOL implanted was actually a new technology
                                         IOL, a type of lens that should not have been included in the
                                         sample. We excluded this claim from our analysis, leaving a
                                         total sample of 359 claims and a population of approximately
                                         891,797 IOL implant claims for the 12-month study period.19
                                         For the second claim, we learned that the ASC had been sold
                                         since the date of the claim, and that the new owners could only
                                         identify the IOL implanted, but could not report the previous
                                         owner’s cost. For this claim, we imputed the highest cost
                                         reported among the other eight claims in the sample with the
                                         same manufacturer and model of IOL.20
                                         Analysis. We calculated an average per IOL cost for the 359
                                         claims in the sample, which were weighted to reflect the
                                         proportion of claims represented by each stratum. 21 We
                                         subtracted this average per IOL cost from the Medicare per lens
                                         payment of $150 to determine the average per lens payment
                                         above cost. We also calculated the average per lens cost and
                                         payment above cost for different types of IOLs by grouping the
                                         359 claims, based on the primary material used in the
                                         construction of each lens. The sample contained 187 IOLs made
                                         primarily of silicone, 147 made of soft acrylic22, and 25 made of
                                         polymethyl methacrylate (PMMA).
                                         We projected the average per lens cost to the population of
                                         891,797 implant claims to estimate total ASC IOL cost for the
                                         12-month period. We calculated total program payments by
                                         multiplying the population of claims by $150. We refer to this
                                         amount as “Medicare payments” and recognize that it includes
                                         both program and beneficiary payments. 23 We subtracted total
                                         ASC IOL cost from total Medicare payments to determine
                                         estimated payments above cost. We also calculated total
                                         estimated payments, cost, and payments above cost by IOL
                                         material.
                                         Further, we developed two possible alternative payment rates
                                         for each lens material type. For the first alternative, we
                                         calculated the weighted 90th percentile rate for each lens type.
                                         That is, using a computer application, we estimated the dollar
                                         amount that was greater than or equal to cost for 90 percent of
                                         all IOLs purchased by ASCs for the sample period. For the
                                         second alternative, we examined the cost distribution of sampled
                                         IOLs to identify high “outlier” ASC cost – reported cost that
                                         appeared excessively high when compared to the rest of the


O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   5
                                         sample. Determining outlier cost was accomplished primarily
                                         using data display analysis. We arrayed IOL cost data from
                                         lowest to highest cost and displayed the distribution graphically.
                                         We then visually determined where along the graph that outlier
                                         cost began, as evidenced by a dramatic decrease in the frequency
                                         of IOLs above a particular cost.
                                         For each lens material type, we located an alternative payment
                                         rate that would have covered all reported costs, except the
                                         outliers. We then calculated how much Medicare and its
                                         beneficiaries would have paid to ASCs for IOLs, if payment had
                                         been set at the rates given by these two alternatives. We also
                                         retrospectively estimated the amount of savings that would have
                                         resulted through use of each of the sets of alternative payment
                                         rates.
                                         Limitations. As mentioned, actual net cost per IOL is likely
                                         lower than the IOL cost used in our analysis, because some
                                         respondents found it difficult to report all reductions in price.
                                         As a result, our analysis likely underestimates the amount of
                                         total Medicare payments above ASC IOL cost. While it would be
                                         beneficial to know the exact cost, net of all price reductions, of
                                         each IOL in the sample, we are confident that we are
                                         underestimating differences between payment and cost rather
                                         than overestimating them.
                                         Finally, our analysis of types of lenses relies on only one
                                         characteristic of IOLs, namely, the primary material used in the
                                         construction of each lens. We recognize that, in addition to lens
                                         material, other IOL features, such as design characteristics,
                                         might also be useful for grouping IOLs for analysis or payment
                                         purposes.
                                         Standards. We conducted this inspection in accordance with the
                                         Quality Standards for Inspections issued by the President’s
                                         Council on Integrity and Efficiency.




O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   6
    F I N D I N G S 


                                                         Medicare and its beneficiaries
      Medicare payment to ASCs for IOLs was
                                                         paid ASCs approximately
       not “reasonable and related to the cost”          $133.7 million for IOLs for the
        of lenses, with about 40 percent of total        12 months ending June 2002.
                   amount paid exceeding cost.           We estimated that ASCs had
                                                         IOL cost of $80.5 million,
                         resulting in Medicare and beneficiary payments above costs of
                         $53.2 million (Figure 1). These amounts indicate that 40
                         percent of total Medicare payments to ASCs for IOLs for the
                         study period exceeded the cost of lenses.


                                                                         Figure 1:
                                                    Forty Percent of Medicare and Beneficiary Payments
                                                          to ASCs for IOLs Were in Excess of Cost
                                                                                          (July 2001 to June 2002)

                                                                                  Total IOL Payments = $133.7 million



                                                                                                                            Soft Acrylic   $9.4 (18%)

                                                               ASC IOL                   Payments
                                                                Cost                      Above
                                                                                           Cost                              Silicone      $36.8 (69%)
                                                              $80.5 (60%)                $53.2 (40%)


                                                                                                                              PMMA         $7.0 (13%)




                                                Source: OIG analysis of IOL Cost and Payments.
                                                All dollars in millions.




                                         IOLs made of silicone, the most prominent lens material in the
                                         sample, accounted for about $36.8 million (69 percent) of
                                         payments above cost. IOLs constructed of soft acrylic and
                                         PMMA accounted for an estimated $9.4 million and $7.0 million,
                                         respectively, in total payments above cost.




O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES          7
F   I       N      D      I     N     G    S


                                                     ASC cost varies significantly by three IOL types; Medicare
                                                     payment exceeds the average cost per lens for each type .
                                                     While we estimated that the average cost to ASCs per IOL was
                                                     $90, we found that average cost varied significantly by lens
                                                     material (Table 2). Soft acrylic lenses accounted for 41 percent
                                                     of the sample and had an average cost of $125, $25 below
                                                     Medicare’s $150 per IOL payment. Silicone lenses accounted for
                                                     52 percent of the sample and had an average cost of $69 per
                                                     lens, about $81 below the payment rate. PMMA lenses
                                                     accounted for 7 percent of the sample and had an average cost of
                                                     $39 per lens, $111 below the payment rate.




                                                                                         Table 2:
                                                                      Average ASC Cost Per IOL Differs by Lens Material


                                                                                                                                        Average Payment
                                                        IOL Type                        Sample                  Average                  (Percent) Above
                                                                                                                                                        a
                                                        (Material)                        Size                     Cost                             Cost      Cost Range

                                                            All
                                                            IOLs                   359 (100%)                           $90                     $60 (40%)      $23 - $150

                                                            Soft
                                                            Acrylic                 147 (41%)                       $125*                       $25 (17%)      $85 - $150

                                                            Silicone                187 (52%)                         $69*                      $81 (54%)      $23 - $150

                                                            PMMA                       25       (7%)                  $39*                    $111 (74%)       $28 - $69
                                                        a
                                                          Average payment above cost calculated as $150 minus average cost.
                                                        * Average costs are different by lens type at p <.05 significance level, based
                                                        on Sudaan analysis.



                                                     ASC cost for sampled IOLs ranged from a low of $23 to a high of
                                                     $150. While no sampled IOLs cost more than the current $150
                                                     Medicare payment per lens, ASC respondents reported paying
                                                     exactly $150 per lens for 11 sampled IOLs - 7 soft acrylic and 4
                                                     silicone. Follow-up document reviews and interviews revealed
                                                     that, for 10 of the 11 IOLs, the $150 reported cost may not have
                                                     accounted for all reductions in price realized by the ASCs
                                                     through various purchase arrangements. For example, 5 of the
                                                     11 lenses were all purchased by different ASCs from the same
                                                     distributor. During an interview with a representative of this
                                                     distributor, we learned that the distributor provided IOLs to

        O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES          8
F   I       N      D      I     N     G    S


                                                     ASCs under contracts that included other cataract surgery
                                                     supplies and equipment. Regardless of the IOL used, the
                                                     distributor stamped every surgical package invoice with a
                                                     statement indicating that, for Medicare reporting purposes, the
                                                     cost of the IOL was $150. Respondents reported that another 5
                                                     of these 11 lenses were purchased through group purchasing
                                                     organizations or bundled with capital equipment, arrangements
                                                     which made it difficult for respondents to determine all
                                                     applicable reductions in cost. One of the 11 IOLs cost $150
                                                     because it involved a lens power outside the normal production
                                                     range.
                                                     Substantial savings could have been achieved through the use
                                                     of alternative payment rates.
                                                     Knowing the average ASC IOL cost is useful for estimating the
                                                     difference between Medicare payments and ASC IOL cost. To
                                                     provide information on payment rates that could be considered
                                                     “reasonable and related to the cost,” we used two different
                                                     analysis methods to identify alternative payment rates for each
                                                     of the three IOL material types. Each method provided
                                                     alternative payment rates that, if used instead of the single
                                                     $150 Medicare payment rate, would have achieved substantial
                                                     savings to Medicare and its beneficiaries while covering the vast
                                                     majority of ASC IOL cost (Table 3).



                                                                                        Table 3:
                                                                Program and Beneficiary Savings Are Possible Through
                                                                  Use of Alternatives to the Current $150 Payment

                                                                                       Average                             Alternative Payment Rates
                                                             IOL                           Cost                       Weighted                          Excluding
                                                                                                                   th
                                                            Material                   Estimate                  90 Percentile                           Outliers

                                                         Soft Acrylic                        $125                                  $134                       $134

                                                         Silicone                               $69                                $100                        $95

                                                         PMMA                                   $39                                 $55                        $45

                                                         Estimated
                                                         Savings                             N/A                       $34.8 million                   $37.7 million




        O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES            9
F   I       N      D      I     N     G    S


                                                     Payment rates set at the weighted 90th percentile (i.e., rates
                                                     greater than or equal to cost for 90 percent of each of the 3 IOL
                                                     types purchased for the sample period) would have resulted in
                                                     estimated savings of $34.8 million. Payment rates that covered
                                                     all sampled IOL costs, except high outliers, would have resulted
                                                     in estimated savings of $37.7 million (see IOL cost distributions
                                                     in Appendix B.) While there are numerous ways of determining
                                                     possible alternative payment rates, these methods provide
                                                     similar payment amounts for each of the three lens types and
                                                     cover all but the highest reported ASC IOL cost. 24




        O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   10
     R E C O M M E N D A T I O N 





                                         Medicare payments to ASCs for IOLs are required by law to be
                                         “reasonable and related to the cost” of lenses. In OBRA ‘87,
                                         Congress granted the HHS Secretary the authority to establish
                                         rates and specified in the conference report that rates may vary
                                         by “categories of IOLs based on differences in type and cost.”
                                         However, our data suggest that the current $150 Medicare per
                                         lens payment is not “reasonable and related to the cost” of IOLs.
                                         We found that 40 percent ($53.2 million) of total Medicare and
                                         beneficiary payments were in excess of ASC cost in the 12
                                         months ending June 2002. Using lens material, one of the
                                         possible lens characteristics for categorizing IOLs, we found that
                                         the average cost per lens varied significantly by IOL type. This
                                         variation suggests that a single payment rate is not reasonable.
                                         We estimate that substantial program and beneficiary savings
                                         could be achieved through the use of alternative payment rates.
                                         To ensure that future payments are “reasonable and related to
                                         the cost” of lenses, we recommend that:
                                         CMS reduce Medicare payment to ASCs for IOLs in a manner
                                         that takes into account the different types and cost of IOLs
                                         The MMA requires CMS to implement a revised payment
                                         system for ASCs, beginning not later than January 1, 2008, and
                                         GAO to conduct a study of ASC payments in 2004. We
                                         encourage CMS to consider the information provided in this
                                         report as it revises the ASC payment system. We also
                                         encourage CMS to discuss with GAO our findings regarding
                                         ASC IOL costs and payments.
                                         Agency Comments

                                         CMS commented on our draft report recommendation written
                                         before the MMA was enacted. We had urged CMS to take
                                         administrative action, or seek legislation, to immediately reduce
                                         ASC IOL payment rates. In responding, CMS agreed to take
                                         into account our recommendation and data in developing the
                                         revised payment system for ASCs. However, CMS stated that,
                                         in light of the significant changes in how CMS determines ASC
                                         payments resulting from the MMA, it is deferring action to
                                         reduce Medicare payment to ASC for IOLs.


O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   11
     E N D                    N O T E S 


                                      1   42 CFR § 416.2

                                      2   42 CFR § 416.65

                                      3   IOL implant procedures includ e those with CPT codes 66982,
                                          66983, 66984, 66985, and 66986. American Medical
                                          Association, Current Procedural Terminology 2001 (Chicago:
                                          AMA Press, 2001), 229. The 5 procedures are described as
                                          follows: 66982 - Extracapsular cataract removal with
                                          insertion of intraocular lens prosthesis, complex; 66983 -
                                          Intracapsular cataract extraction with insertion of
                                          intraocular lens prosthesis; 66984 - Extracapsular cataract
                                          removal with insertion of intraocular lens prosthesis; 66985 -
                                          Insertion of intraocular lens prosthesis, not associated with
                                          concurrent cataract removal; 66986 - Exchange of intraocular
                                          lens prosthesis.

                                      4   For example, Medicare Part B paid $1.97 billion for
                                          extracapsular cataract removal with insertion of intraocular
                                          lens prosthesis (66984) in 2001. Center for Medicare and
                                          Medicaid Services, “Medicare Leading Part B Procedure
                                          Codes Based on Allowed Charges, 2001.”

                                      5   Physicians that perform implant procedures are paid, based
                                          on a separate physician fee schedule.

                                      6   In 1999, CMS issued regulations authorizing an additional
                                          $50 be added to Medicare ASC IOL payment when
                                          designated “new technology intraocular lens” are used in
                                          implant procedures. To date, only two specific lenses have
                                          been designated as new technology IOLs. Our analysis found
                                          that new technology IOLs accounted for less than 2 percent of
                                          all Medicare ASC IOL implant claims in the study period.

                                      7   Based on our analysis of claims, Medicare paid ASCs $150
                                          per lens for 891,797 claims, for a total of $133,769,400. See
                                          the Methodology section for more details.

                                      8   Omnibus Budget Reconciliation Act of 1993, Pub. L. No. 103-
                                          66, sec. 13533




O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   12
                                      9   Department of Health and Human Services, Office of
                                          Inspector General, OIG Management Advisory Report:
                                          “Intraocular Lens Cost,” OEI-05-92-01031, March 26, 1993

                                      10   Department of Health and Human Services, Office of
                                          Inspector General, “Medicare Certified Ambulatory Surgical
                                          Centers: Cataract Surgery Cost and Related Issues,” OAI-09-
                                          88-00490, March 1988

                                      11   63 FR 32303-32304, June 12, 1998

                                      12   Section 1833 (i)(2)(A)(i) of the Act requires a survey.

                                      13  Medicare Prescription Drug, Improvement, and
                                          Modernization Act of 2003. Pub. L. 108-173, sec. 626

                                      14  H.R. Conf. Rep. No. 100-495, at 616 (1987), reprinted in 1987
                                          U.S.C.C.A.N. at 1362

                                      15   This population excludes 31,129 claims for beneficiaries who
                                          were identified as having at least 1 new technology IOL
                                          implanted. These beneficiaries had at least one claim for the
                                          sample period with the procedure code Q1001 or Q1002,
                                          which indicated that a new technology IOL was implanted.
                                          The population also excludes a total of 51,491 claims with
                                          modifiers, indicating that the procedure might have been
                                          discontinued, and claims for which the amount Medicare
                                          allowed was unusually small, indications that an IOL might
                                          not have been implanted. Specifically, these claims contained
                                          modifier codes 52, 53, 73, 74 or allowed payment amounts of
                                          less than $300.

                                      16   Stratification accomplished this purpose. While provider
                                          numbers with 120 or fewer claims in the population
                                          accounted for only about 4 percent of all claims in the sample
                                          period, we selected about 17 percent of the sample (60 claims)
                                          from this group.

                                      17   For random sampling, we used RAT-STAT, the OIG’s
                                          statistical software program with random number generator.

                                      18   Some of these purchasing agreements bundled IOLs and
                                          surgical accessories or equipment together in such a way that
                                          providers could not determine the price of the IOL without
                                          requesting additional information from their vendor.


O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   13
                                      19  The excluded claim came from the “1,200 or more” stratum,
                                         leaving 179 claims in that stratum.

                                      20  The other eight claims in the sample with the same IOL
                                         manufacturer and model had a mean cost of $59.38,
                                         minimum cost of $50.00, and maximum cost of $65.85. We
                                         imputed the maximum reported cost of $65.85 for the claim
                                         in question.

                                      21   The following table shows the calculated weights:

                                                                                  Calculated Weights for IOL Sample Strata

                                                          Strata (Claims per                                                Sampled        Calculated
                                                          Provider Number)                            Claims                 Claims          Weights

                                                               1,200 or more                         293,652                    180               1,631.4

                                                                   121 – 1199                        564,917                    120               4,707.6

                                                               120 or fewer                            34,859                    60                581.0

                                                                      Total                          893,428                    360
                                         Both SAS® and SUDAAN® were used in analyzing data.
                                         SUDAAN® was used to determine weighted mean cost and
                                         their standard errors, adjusted for the sampling design.

                                      22 The soft acrylic group include hydrophobic, hydrophilic, and
                                         hydrogel lenses.

                                      23  This amount should be viewed as a proxy for actual
                                         Medicare and beneficiary payments. Actual payments may
                                         be affected by coinsurance, deductibles, multiple procedure
                                         payment rules, etc. Use of this proxy is necessary, however,
                                         because the $150 IOL payment is bundled with the surgical
                                         procedure facility fee when Part B carriers pay ASCs, making
                                         it impossible to tally actual payments for IOLs alone.

                                      24  Further examination of those IOLs with reported ASC cost
                                         above the alternative payment rates confirmed that these
                                         reported costs were truly outliers. For example, 2 IOL
                                         models accounted for 13 of the 17 silicone IOLs with reported
                                         cost above $95. The other 93 IOLs in the sample
                                         representing the same 2 silicone lens models had an average
                                         weighted cost of $69.20.




O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES             14
    �            A P P E N D I X                                          ~             A 



                                    Estimates and Confidence Intervals

                                                                                                           95 % Confidence Interval
                                                             Mean                  Standard
                                            N             Estimate                     Error Lower Limit                                Upper Limit          p
ASC IOL Cost Estimates

All IOLs                                 359                   $90.30                         2.22                    $85.95                   $94.65

ASC IOL Cost by Type of Lens                                                                                                                                       a
                                                                                                                                                              <(.05)
Soft                                     147                 $124.77                          1.11                  $122.59                   $126.95
Acrylic
Silicone                                 187                   $69.37                         2.09                    $65.27                   $73.47
PMMA                                      25                   $39.10                         1.80                    $35.57                   $42.63

a
    General Linear Modeling analysis: F< .0005; all lens types differ at p<.05.
* Average per lens cost differences significant at p level indicated.


                                                                              b
12-Month Medicare Payment Projections
                     Payment
                                                                                                               b
                     Per IOL          N                                                     Estimate

                                            $150.00            891,797                $133,769,490


                                                                                                                                             95 % Confidence Interval
                                                                                                                      Standard
                                                                                                               b
                                            Mean                              N             Estimate                      Error            Lower Limit       Upper Limit
12-Month ASC IOL Cost
All IOLs                                  $90.30               891,797                  $80,525,748                               2.22       $76,645,531      $84,405,965

Soft Acrylic                             $124.77               371,419                  $46,341,756                               1.11       $45,533,701      $47,149,812
Silicone                                  $69.37               457,083                  $31,708,905                               2.09       $29,836,447      $33,581,362
PMMA                                      $39.10                63,294                   $2,475,087                               1.80        $2,251,759       $2,698,415



12-Month Payments Above ASC Cost
All IOLs                                  $59.70               891,797                  $53,243,742                               2.22       $49,363,103      $57,124,381

Soft Acrylic                              $25.23               371,419                   $9,371,112                               1.11        $8,563,034      $10,179,189
Silicone                                  $80.63               457,083                  $36,853,602                               2.09       $34,981,258      $38,725,946
PMMA                                     $110.90                63,294                   $7,019,028                               1.80        $6,795,736       $7,242,320




           O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES             15
    A   P    P       E      N      D      I   X    ~      A


Estimates and Confidence Intervals (continued)
                                                Mean                                                                       Standard              95 % Confidence Interval
                                                                                                                    b
                                              Savings                   N                        Estimate                      Error            Lower Limit   Upper Limit
                                                    th
12-Month Cost Savings - 90 Percentile Rates 

All IOLs                                       $39.03               891,797                  $34,806,821                               1.42       $32,324,773     $37,288,870



                                              Payment                  Savings
                                               Per IOL                 Per IOL
Soft Acrylic                                      $134.00                 $16.00
Silicone                                          $100.00                 $50.00
PMMA                                               $55.00                 $95.00



                                                Mean                                                                       Standard              95 % Confidence Interval
                                                                                                                    b
                                              Savings                   N                        Estimate                      Error            Lower Limit   Upper Limit
12-Month Cost Savings – Outlier Exclusion Rates


All IOLs                                       $42.31               891,797                  $37,731,914                               1.61       $34,917,761     $40,546,067



                                              Payment                  Savings
                                               Per IOL                 Per IOL
Soft Acrylic                                      $134.00                 $16.00
Silicone                                           $95.00                     $55.00
PMMA                                               $45.00               $105.00


Proportion of Payments Above ASC Cost by Type of IOL

                                                                                                                                                  95 % Confidence Interval
                                                                                                                           Standard
                                                                                                   Estimate                    Error              Lower Limit     Upper Limit
Soft Acrylic                                                                                          17.6%                     0.02                   13.9%           21.3%
Silicone                                                                                              69.2%                     0.03                   62.9%           75.5%
PMMA                                                                                                  13.2%                     0.03                    7.5%           18.9%
b
    Projection estimates based upon unrounded weighted numbers of claims in population.




            O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES         16
             A P P E N D I X ~ B

                                                        IOL Cost Distributions


                                     Soft Acrylic IOL Cost Distribution

$160

$150
                                                                                                                                                         Outliers
$140

$130

$120

$110

$100                                                                                           Threshold = $134

 $90

 $80
           Each triangle represents one IOL. Sample size = 147




                                                  Silicone IOL Cost Distribution


$150

$130
                                                 Threshold = $95                                                                                          Outliers
$110

 $90

 $70

 $50

 $30

 $10

          Each triangle represents one IOL. Sample size = 187




       O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES         17

A   P    P    E      N       D      I       X   ~   B




              IOL Cost Distributions (continued)


                                                                 PMMA IOL Cost Distibution

        $80

        $70
                                                                                                                                                                    Outliers
        $60
                                            Threshold = $45
        $50

        $40

        $30

        $20

        $10

         $0

        Each triangle represents one IOL. Sample size = 25




              O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES        18

�         A P P E N D I X                                          ~             C 



          AGENCY COMMENTS




    O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   19

A   P    P      E      N       D      I   X         ~           C



              AGENCY COMMENTS (continued)




        O E I - 06 - 02 - 0 0 7 1 0       ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   20

     A C K N O W L E D G M E N T S 




                                         This report was prepared under the direction of Judith V. Tyler, 

                                         Regional Inspector General for Evaluation and Inspections in 

                                         the Dallas Regional Office, and Kevin Golladay, Assistant 

                                         Regional Inspector General. Other principal Office of 

                                         Evaluation and Inspections staff who contributed include:

                                         A. Blaine Collins, Team Leader


                                         Deborah McGurk, Program Analyst


                                         Amy Ashcraft, Program Analyst


                                         Bambi Straw, Program Specialist 


                                         Tricia Davis, Director, Medicare and Medicaid Branch




                                         Technical Assistance


                                         Barbara Tedesco, Mathematical Statistician


                                         Clark Thomas, Program Analyst





O E I - 06 - 02 - 0 0 7 1 0   ME D I C A R E PA Y M E N T S   TO   AM B U L A T O R Y S U R G I C A L C E N T E R S   FOR   I NTRAOCULAR LENSES   21
